May 19, 1995

IG-1

INFORMATION: "Audit of Administration of Cooperative Research
and Development Agreements at DOE National
Laboratories"

The Secretary

BACKGROUND:

The Department of Energy (DOE) established policies to ensure
that Cooperative Research and Development Agreements (CRADAs)
enhance U.S. competitiveness in the world economy, provide a
reasonable return on resources invested, and enable successful
commercialization of technologies developed. DOE's Office of
Technology Partnerships issued the General Guidance Memorandum
to DOE operations offices establishing policy goals for
technology transfer programs, including CRADAs.

DISCUSSION:

We found that the efforts to manage CRADAs at three DOE
national laboratories (Los Alamos, Oak Ridge, and Lawrence
Livermore) did not fully achieve DOE's policy goals outlined in
the General Guidance Memorandum. Specifically, the audit
disclosed that: (1) joint work statements did not always
contain clearly defined information that allowed DOE to
facilitate technology transfer or to evaluate a CRADA's
potential benefits; (2) CRADA statements of work did not always
contain adequate documentation or address potential benefits;
(3) the three national laboratories did not have effective
mechanisms for continuous self-appraisal or measures of overall
program success; and (4) CRADA provisions did not exist to
ensure an accurate valuation of partner contributions.

Additionally, we concluded that the cooperative efforts
envisioned in the CRADA concept have the potential to greatly
benefit the U.S. economy. However, the CRADA concept could be
undermined if the Department does not implement appropriate
management techniques and performance measurement mechanisms to
determine the viability of its CRADAs. We believe that such
techniques and mechanisms can be implemented in a manner that
will not inhibit commercial sector interaction with the
Department's national laboratories.
                               -2-


We discussed this report with the Associate Deputy Under
Secretary for Operations, Office of Technology Partnerships.
Management partially concurred with the finding and
recommendations in the report.
                               John C. Layton
                               Inspector General

Attachment

cc:   Deputy Secretary
      Under Secretary
      Associate Deputy Under Secretary for Operations,
        Office of Technology Partnerships
                     U.S. DEPARTMENT OF ENERGY
                    OFFICE OF INSPECTOR GENERAL




                    AUDIT OF ADMINISTRATION OF

          COOPERATIVE RESEARCH AND DEVELOPMENT AGREEMENTS

                   AT DOE NATIONAL LABORATORIES




The Office of Audit Services wants to make the distribution of
its audit reports as customer friendly and cost effective as
possible. Therefore, we are making this report available
electronically through the Internet at the following alternative
addresses:

             Department of Energy Headquarters Gopher
                        gopher.hr.doe.gov

          Department of Energy Headquarters Anonymous FTP
                        vm1.hqadmin.doe.gov

We are experimenting with various options to facilitate audit
report distribution. Your comments would be appreciated and can
be provided on the Customer Comment Form attached to the Audit
Report.




Report Number: DOE/IG-0373      Western Regional Audit Office
Date of Issue: May 19, 1995     Albuquerque, New Mexico 87185
                    AUDIT OF ADMINISTRATION OF
          COOPERATIVE RESEARCH AND DEVELOPMENT AGREEMENTS
                   AT DOE NATIONAL LABORATORIES


                        TABLE OF CONTENTS
                                                               Page

            SUMMARY ........................................     1

PART I    - APPROACH AND OVERVIEW ..........................     2

            Introduction ...................................     2

            Scope and Methodology ..........................     2

            Background .....................................     3

            Observations and Conclusions ...................     5

PART II   - FINDING AND RECOMMENDATIONS ....................     8

            Administration of Cooperative Research and
            Development Agreements at DOE National
            Laboratories....................................     8

PART III - MANAGEMENT AND AUDITOR COMMENTS ................     16
                        U.S. DEPARTMENT OF ENERGY
                       OFFICE OF INSPECTOR GENERAL
                        OFFICE OF AUDIT SERVICES

               AUDIT OF ADMINISTRATION OF COOPERATIVE
                 RESEARCH AND DEVELOPMENT AGREEMENTS
                    AT DOE NATIONAL LABORATORIES

Audit Report Number:     DOE/IG-0373

                                 SUMMARY

     The Department of Energy (DOE) established policies to
ensure that Cooperative Research and Development Agreements
(CRADAs) enhance U.S. competitiveness in the world economy,
provide a reasonable return on resources invested, and enable
successful commercialization of technologies developed. DOE's
Office of Technology Partnerships issued a General Guidance
Memorandum to DOE operations offices establishing policy goals
for technology transfer programs, including CRADAs.

     Our audit disclosed that efforts to manage CRADAs at three
national laboratories did not fully achieve DOE's policy goals
outlined in the General Guidance Memorandum. Specifically, the
audit showed that: (1) joint work statements did not always
contain clearly defined information that allowed DOE to
facilitate technology transfer or to evaluate CRADAs potential
benefits; (2) CRADA statements of work did not always contain
adequate documentation or address potential benefits; (3) the
national laboratories reviewed did not have effective mechanisms
for continuous self-appraisal or measures of overall program
success; and (4) CRADA provisions did not exist to ensure an
accurate evaluation of partner contributions.

Management partially concurred with the finding and
recommendations. Management agreed to take action on those
recommendations they concurred with.




                                  #=2
                                 PART I

                          APPROACH AND OVERVIEW

INTRODUCTION

     The Department of Energy contracts with management and
operating (M&O) contractors to operate its national laboratories.
The laboratories are involved in multiple areas of research and
development in science and nuclear technologies. This includes
efforts to transfer technology from the national laboratories to
the private sector. One type of technology transfer effort
encompasses Cooperative Research and Development Agreements.
CRADAs are cost-sharing agreements between a Federal entity, such
as a DOE national laboratory and a private sector partner
(partner), to engage in joint scientific research aimed at
providing mutual benefits to the partner, DOE, and the U.S.
economy.

     The objective of the audit was to determine whether the
national laboratory M&O contractors were managing and
implementing their CRADAs consistent with the goals of DOE's
Technology Transfer Program and technology transfer legislation.

SCOPE AND METHODOLOGY

     The audit was conducted at DOE's Los Alamos, Oak Ridge, and
Lawrence Livermore National Laboratories, and at DOE's
Albuquerque, Oak Ridge, and Oakland Operations Offices, from
October 1993 through June 1994. The audit included a review of
current technology transfer legislation and DOE policies and
procedures pertaining to CRADAs adopted by Los Alamos, Oak Ridge,
and Lawrence Livermore. We emphasized policies and procedures in
place during Fiscal Years (FY) 1993 and 1994.

     Consistent with the specific audit objective, we:

     o   examined technology transfer legislation, applicable DOE
         directives, and the prime contracts between DOE and the
         three national laboratories;

     o   reviewed policies and procedures, memoranda, database
         information, and correspondence from DOE and the three
         national laboratories pertaining to CRADA management;
         and,

     o   interviewed personnel responsible for approving and
         managing CRADAs.

     We judgmentally selected 110 joint work statements valued at
$408 million for review. A joint work statement is a proposal
prepared for a Federal agency by the director of a
Government-owned, contractor-operated laboratory describing the
purpose and scope of a proposed CRADA. As a proposal, it
precedes preparation of the CRADA. We reviewed the joint work
statements to determine if each: clearly addressed expected
goals and accomplishments; defined tasks and milestones;
described potential benefits to both DOE and the U.S. economy;
and, addressed fairness of opportunity.

     In addition, we judgmentally selected 194 executed CRADAs
valued at $580 million for examination. Our examination was to
determine whether CRADA statements of work, tasks, milestones,
and clauses were clear and specific. We also examined the CRADAs
to determine whether each contained a means to verify the
valuation of partner contributions to the CRADA, and whether the
CRADA contained a clear statement of potential benefits to both
DOE and the U.S. economy. Finally, we reviewed supporting
documentation provided by laboratory personnel to determine
whether it was specific and consistent with the tasks or phases
outlined in CRADA statements of work.

      The audit was conducted according to generally accepted
Government auditing standards for performance audits and included
tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy the audit
objective. Accordingly, we assessed the significant internal
controls with respect to the management of CRADAs. We relied on
computer-processed data in only one limited instance: a
computerized list of all executed CRADAs from each of the three
DOE national laboratories. Due to time constraints, we did not
examine whether the lists actually represented all executed
CRADAs at those sites. Because our review was limited, it would
not necessarily have disclosed all internal control deficiencies
that may have existed at the time of our audit. We discussed the
results of the audit with DOE's Associate Deputy Under Secretary
for Operations, Office of Technology Partnerships, in November
1994.

BACKGROUND

     During the 1980s, Congress began to focus on technology
transfer as a way to correct what it perceived as an unfavorable
imbalance in U.S.-international trade. There was concern that
the U.S. commercial marketplace was not receiving the potential
benefits of science and technology developed at the Federal
research and development laboratories. Congress believed that a
major gap had emerged between the Federal Government's technology
base and industry's ability to commit resources to applying new
technologies in the marketplace. In addition, the downsizing of
the U.S. defense establishment contributed to a major shift in
Federal funding from weapons research and development to
commercial technology research. Congress enacted three laws to
promote technology transfer and establish it as a specific
mission of all Federal laboratories:

  o The Stevenson-Wydler Technology Act of 1980 required
Federal laboratories to take more active roles in
technical cooperation with U.S. industry, and established
an Office of Research and Technology Application at each
Federal laboratory.

  o The Federal Technology Transfer Act of 1986 authorized
Government-owned, Government-operated laboratories to
form CRADAs with partners and made technology transfer a
job requirement of every laboratory scientist and
engineer.

  o The National Competitiveness Technology Transfer Act of
1989 amended the Stevenson-Wydler Act by giving
Government-owned, contractor-operated laboratories the
authority to enter into CRADAs directly with private
sector partners without triggering many legal conditions
used by the Government, such as adherence to acquisition
regulations. In addition, this act also mandated
technology transfer as a mission for all Federal
laboratories.

     In the early stages of technology transfer efforts, the
Executive Branch also wanted to enhance the transfer of
Federally-developed technology to the U.S. economy. This
interest in technology transfer was prominent within DOE and its
national laboratories. DOE believed that effective transfer of
its technologies could benefit the commercial marketplace.
Secretary of Energy Notice (SEN) 30A-92 stated that "... we can
help U.S. industry develop economically and environmentally
superior products and processes, create new jobs, and enhance the
skill level of the U.S. economic strength and national security."

     In addition, SEN 30A-92 indicated that the mission of DOE's
technology transfer was to help enhance U.S. competitiveness and
national security, by expanding and accelerating the transfer of
Federally-funded technologies and knowledge into commercial
application by U.S.-based industry. In support of this mission,
SEN 30A-92 indicated that DOE would increase participation by
U.S.-based industry and by DOE, and would accelerate the
technology transfer process.

     As a result, during 1991 and 1992 DOE operations offices
began to review and approve a rapidly increasing number of
proposed CRADAs between DOE facilities and interested partners.
As of September 1994, DOE facilities had entered into 1,000
CRADAs. Moreover, in the last three years, DOE entered into
CRADAs valued at $1.3 billion. DOE's share of the contributions
to those CRADAs was 44 percent (approximately $572 million). The
FY 1995 budget for DOE reserved $279 million for CRADAs.

     In July 1994, the Office of Inspector General issued a
report titled "Inspection of Selected Issues Regarding the
Department's Enhanced Technology Transfer Program" (DOE/IG-0353).
This report discussed four issues for management's attention.
Three issues dealt primarily with budget and accounting
procedures, and the fourth dealt with performance measurement.
The report stated that the Department had not developed a
performance measurement and reporting system as required by the
FY 1993 Technology Transfer Crosscut Plan. The Department
concurred with the report's recommendation to expedite the
development of such a system.

OBSERVATIONS AND CONCLUSIONS

     We recognized during the audit that CRADAs are an important
vehicle for DOE national laboratories to transfer
"state-of-the-art" technology to the private sector in order to
enhance the U.S. economy. CRADAs are an essential tool to
effectively use Federally-developed technologies to benefit DOE
and the U.S. economy. Further, during the audit, the three
national laboratories we reviewed began efforts to improve
management of their CRADAs. For example, Oak Ridge National
Laboratory was creating a matrix program to address benefit and
results of completed CRADAs. Also, Lawrence Livermore National
Laboratory was attempting to implement a program to administer
CRADAs, and Los Alamos National Laboratory was creating a program
to track milestones.

     Despite these steps, we found that DOE's efforts to manage
CRADAs could be improved in four specific areas: joint work
statements; statements of work; milestones; and valuation of
partner contributions. These areas could be improved through
more specific DOE Headquarters guidance addressing management
issues identified in this report. Addressing these issues would
strengthen and improve the quality of CRADAs and assist in
meeting the Secretary's stated goal of implementing total quality
management for all DOE processes and products.


     The Secretary of Energy Advisory Board (Galvin Commission)
report, titled "Alternative Futures for the Department of Energy
National Laboratories," was published after the completion of our
field work. In this report, the Galvin Commission stated that,
taken as a whole, industrial competitiveness activities
(including CRADAs) at the national laboratories were unfocused
and lacked a firm policy foundation. While giving DOE credit for
developing criteria for greater focus, the report recommended
increased emphasis on measurement of technology transfer
performance and more rigorous technical and merit review of
CRADAs. The Galvin Commission also noted that improvements in
the selection and monitoring processes need not, and should not,
increase the time requirements for CRADA negotiations. Our audit
results support these conclusions and our recommendations should
help to improve the selection and monitoring processes of the
CRADA program.

     In addition, by addressing these issues in a timely
manner, DOE would show a positive response to Congressional
and others concerns about CRADA accountability. In the
Congress, legislation was proposed which was designed to
increase accountability over the CRADA program.
McGraw-Hill's "Federal Technology Report" reported that
during 1994 Senate bill S.473 was passed to cap the maximum
amount of funds that DOE national laboratories would be
allowed to spend for technology transfer at 20 percent of
their budgets until 1999. Thereafter the cap would be 10
percent of their budgets which would effectively cut the
funding in half. Additionally, in its passage of S.473 the
House Energy and Commerce Committee specified that all
CRADAs, where the Federal share is worth $500,000 or more,
must include technical milestones, vendor goals, and
evaluation criteria. Also, these CRADAs must be evaluated
annually against the criteria. The Armed Services Committee
and the Science, Space, and Technology Committee passed H.R.
1432 which contained provisions similar to those in S.473.
To date, this legislation has not been enacted.

     DOE and the National Aeronautics and Space Administration
(NASA) have shown similar concerns over demonstrating successful
CRADA results. The Secretary and Under Secretary of Energy have
spoken of a need for more accurate gauges of the effectiveness of
interactions between industry and the national laboratories.
Also, NASA's Office of Advanced Concepts and Technology is now
soliciting information from commercial partners in CRADAs and
other technology transfer programs in order to calculate a rate
of return on such investments. NASA is also involved in an
interagency team examining the feasibility of extending such
measurements to technology projects throughout the Federal
Government.

     Our finding relating to DOE national laboratory management
of CRADAs disclosed material weaknesses that management should
consider when preparing yearend assurance memoranda on management
controls.

                               PART II

                     FINDING AND RECOMMENDATIONS

      Administration of Cooperative Research and Development
              Agreements at DOE National Laboratories


FINDING

     DOE established policies to ensure that CRADAs enhance U.S.
competitiveness in the world economy, provide a reasonable return
on resources invested, and enable successful commercialization
of technologies developed. However, we found that the efforts
to manage CRADAs at three DOE national laboratories did not
ensure that these DOE policy goals were met in four areas:
(1) joint work statements; (2) statements of work; (3) CRADA
milestones; and (4) valuation of partner contributions to a
CRADA. This occurred because DOE's Office of Technology
Partnerships provided insufficient implementing guidance. As a
result, DOE could not demonstrate that CRADAs met their intended
goals; measure progress toward achieving stated goals; determine
the viability of potential CRADAs and partners in-kind
contributions; and, ensure that consistent management guidance
was provided to all DOE facilities.

RECOMMENDATIONS

     We recommend that the Associate Deputy Under Secretary for
Operations, Office of Technology Partnerships, in coordination
with sponsoring DOE program offices:

     1.   Provide sufficient implementing guidance to DOE's
          national laboratories for measuring CRADA progress and
          results. This guidance should:

         a. ensure that all joint work statements clearly
  address expected goals and accomplishments and
  define tasks and milestones;

         b. ensure that all statements of work contain a
  detailed description of work, tasks and milestones;

         c. ensure that all CRADAs and joint work statements
  clearly state the CRADA's projected potential
  benefit(s) to both DOE and to the U.S. economy;
         d. provide for implementation of a formal tracking
  system that adequately documents and links milestone
  progress directly back to the tasks contained in the
  statements of work; and,

         e. ensure that reports on all completed CRADAs include
  an explanation of: (1) whether the projected
  potential benefit(s) to both DOE and to the U.S.
  economy actually occurred; (2) whether the partner
  improved its efficiency and effectiveness; and (3)
  the potential for commercialization and technical
  success resulting from the completed CRADA.

     2.   Establish a mechanism to ensure proper valuation of
          partner contributions to a CRADA.

MANAGEMENT REACTION

     Management concurred with the finding and partially
concurred with the recommendations. Detailed management and
auditor comments are included in Part III of this report.

                         DETAILS OF FINDING

     DOE established policies for technology transfer involving
its national laboratories through a General Guidance Memorandum.
The policies were designed to promote technology transfer that
could benefit DOE programs and the U.S. economy. In order to
determine whether the policy goals outlined in the memorandum
were achieved, DOE needed mechanisms to measure the progress and
results of technology transfer programs.

     The Office of Technology Partnerships issued the General
Guidance Memorandum to operations offices establishing policy
goals for technology transfer programs, including CRADAs. These
goals covered a number of issues, including technology transfer
mechanisms, and evaluation and oversight. For example, the
section of the memorandum covering technology transfer mechanisms
indicated that mechanisms selected should facilitate technology
transfer, while promoting a fair return to the taxpayer and
benefits to the U.S. economy. Also, the section on evaluation
and oversight indicated that each DOE facility shall establish
criteria to measure the success of the overall technology
transfer effort. It cited four examples of such criteria:
(1) documenting technology transfer activities; (2) establishing
internal controls, including mechanisms for continuous
self-appraisal at all management levels; (3) using measures of
overall program success, including milestones achieved and
notable deliverables related to the technology transfer
activities and tasks; and (4) using standard accounting and
auditing procedures with appropriate tracking of funds.

     Although the General Guidance Memorandum established
technology transfer policies, our audit disclosed that DOE
mechanisms to measure the progress and results of technology
transfer programs were inadequate. For example, DOE issued a
"modular CRADA" with 60 pre-approved provisions designed to
significantly shorten the process for negotiation and approval of
CRADAs. The purpose was to enable national laboratories and
their partners to use a "mix-and-match" approach to select
appropriate provisions for a CRADA. However, the modular CRADA
did not address mechanisms to measure the progress and results of
CRADAs.

     In the absence of such mechanisms, we developed techniques
to measure the progress and results of the CRADAs we reviewed.
Our techniques were designed to determine whether joint work
statements and statements of work clearly stated how the proposed
CRADA would be conducted: who would do the work; the purpose of
the work; tasks to be performed; proposed milestones; and, how
the work would potentially benefit DOE and the U.S. economy.
Additionally, we examined CRADA milestone documentation to
determine if it explained how a specific task was completed, or
determine whether it could be used to measure progress toward
completion. Finally, CRADAs were reviewed to determine if they
contained mechanisms to verify the valuation of partner
contributions.

LABORATORY MANAGEMENT OF CRADAS

     We found that the efforts to manage CRADAs at Los Alamos,
Oak Ridge, and Lawrence Livermore national laboratories did not
fully achieve DOE's policy goals outlined in the General Guidance
Memorandum. Specifically, (1) joint work statements did not
always contain clearly defined information that allowed DOE to
facilitate technology transfer or to evaluate a CRADA's potential
benefits; (2) CRADA statements of work did not always contain
adequate documentation or address potential benefits; (3) the
three national laboratories did not have effective mechanisms for
continuous self-appraisal or measures of overall program success;
and (4) CRADA provisions did not exist to ensure an accurate
valuation of partner contributions.

Joint Work Statements

     Joint work statements did not always contain clearly defined
information that allowed DOE to facilitate technology transfer,
or to evaluate a CRADA's potential to provide benefits to both
DOE programs and the U.S. economy. Of the 110 joint work
statements reviewed: 18 did not clearly address expected goals
and accomplishments; 37 did not define tasks and milestones; and
45 did not clearly address potential benefits to both DOE and the
U.S. economy. For example, one joint work statement's section on
potential benefits stated that DOE would have access to new
technology, but did not indicate how this technology would
benefit DOE.

CRADA Statements of Work

     CRADA statements of work did not always contain adequate
documentation, or address potential benefits to DOE programs or
to the U.S. economy. The statement of work should be the CRADA's
detailed outline of the actual work to be performed. We reviewed
statements of work for 194 CRADAs and found that 109 did not
clearly define one or more of the following: the description of
work, the tasks to be completed, or milestones assigned to each
task. By contrast, an adequate CRADA statement of work would
contain specific information that clearly defined the purpose,
scope, description, tasks, and milestones for both parties.

     Potential benefits to DOE or the U.S. economy were not
addressed in 170 of the CRADAs. Although 75 CRADAs addressed
potential benefits of the research/development, they did not
provide enough information to identify how the developed product
or process would benefit DOE or the U.S. economy. The remaining
95 did not address potential benefits at all.

     In commenting on a draft of this report, the Associate
Deputy Under Secretary acknowledged that improvements could be
made to joint work statements and statements of work. He said
that such improvements will be the subject of conversations
between the Office of Technology Partnerships, the funding
program offices, and the Office of Field Management.

Milestones

      The three national laboratories did not have effective
mechanisms for continuous self-appraisal or measures of overall
program success. Although all three laboratories submitted
quarterly reports to DOE on CRADA progress, these reports did not
address whether CRADA supporting documentation linked milestone
progress directly back to tasks or phases outlined in the
statement of work. This made it difficult to determine if
milestones were being met or completed on time. We reviewed the
milestone documentation for 60 CRADAs and found that the
documentation provided for 51 CRADAs did not specifically tie
back to the tasks or phases contained in the CRADA statements of
work.

     The Associate Deputy Under Secretary's response to the draft
report also stated that the milestone issue would be addressed by
the Department's successful pilot of its Integrated Technology
Transfer System. This system, which management believes will
soon be implemented, is to provide data for performance
measurements of the Department's technology programs. While such
a system is a positive step, because it was not in place at the
time of our audit, we could not determine whether the system will
actually measure milestone progress for ongoing CRADAs.

Valuation of Partner Contributions

     The three national laboratories did not employ standard
accounting and auditing procedures with appropriate tracking of
funds to verify the value partners assigned to their in-kind
contributions. In-kind contributions are noncash contributions
that may be in the form of labor, facilities, equipment, etc.,
that the partners contribute to cover their share of the CRADA.
During the audit, we found that principal investigators
(laboratory personnel responsible for carrying out CRADA work)
generally had access to data showing the level of a partner's
in-kind contributions to the CRADA. However, this access was not
sufficient to protect the Government's investment in CRADAs
because it did not provide a formal, independent valuation of
contributions. None of the 194 CRADAs we reviewed contained
mechanisms that would allow the Government to determine a
partner's in-kind contribution. Although earlier versions of
standard DOE guidance allowed for the negotiation of audit
clauses, this was not done because DOE officials believed the
potential for audit would discourage partner participation.

     The Associate Deputy Under Secretary stated that the current
DOE policy is not to audit partner in-kind contributions. Also,
DOE policy allows funds from other Federal programs to be applied
to CRADAs, subject to the rules applicable to those other
programs. Therefore, it would be difficult to account for or
validate partners in-kind contributions. However, our position
is that in the absence of the audit clause DOE should devise an
alternate mechanism to independently validate the partner's
in-kind contributions. We believe this can be accomplished in a
way such that the private sector partner would not view the
Government's activity as a disincentive to participation in a
CRADA project.

     A recent Office of Inspector General audit report
(WR-B-95-01) noted that DOE established CRADA cost-sharing goals
but did not establish controls to provide reasonable assurance of
achieving those goals. The report noted that DOE's CRADAs at
national laboratories did not include provisions that specified
how the partner was to charge its costs or that provided for
Government access to the partner's accounting records. Partners
were found to be shifting their share of CRADA costs to the
Government through inappropriate charges to Federal contracts.
This cost shifting reduced the partner's financial risk and
possibly the partner's incentive to exert best efforts to achieve
project success.

     DOE's Office of Chief Financial Officer has also expressed
concern about the valuation of partner contributions. In the May
1993 report of its compliance review of DOE's Albuquerque
Operations Office, the Chief Financial Officer noted that under
existing controls, DOE could be paying more than its fair share
of CRADA costs. The Chief Financial Officer's report recommended
that DOE Albuquerque Operations Office direct the finance staffs
of its national laboratories to review partner valuation of
in-kind contributions.

DOE GUIDANCE ON MANAGEMENT OF CRADAS

     The national laboratories could not ensure that their CRADAs
met the policy goals outlined in the General Guidance Memorandum
because DOE Headquarters did not provide sufficient implementing
guidance. Headquarters issued a modular CRADA, that contained
examples of desirable CRADA provisions, which was designed to
expedite the negotiation and approval of CRADAs. However, this
modular CRADA did not provide implementing guidance that
sufficiently addressed how to achieve the policy goals outlined
in the General Guidance Memorandum. Headquarters emphasis on
expediting the negotiation and approval of CRADAs may have
contributed to the failure to develop and issue detailed
implementing guidance.

POTENTIAL DIFFICULTIES

     In effect, the vague statements of work and joint work
statements, the failure to link work performed to milestones, and
the failure to account for partners in-kind contributions made it
difficult to adequately determine the viability of the CRADAs.
If these deficiencies are not addressed, DOE could be in the
position of justifying large expenditures on CRADAs that were not
viable as well as adversely effecting future funding for CRADAs.
The failure to provide detailed implementing guidance can also
have the following effects.

o    DOE may not be able to demonstrate that a CRADA was
successful. We reviewed final reports on 17 completed
CRADAs, valued at $3.3 million, and found that none
explained how the completed CRADA benefited the DOE or the
U.S. economy. Although final reports were completed, the
reports were written from a technical standpoint addressing
technical accomplishments. Therefore, it was difficult to
determine if the CRADA was successful in actually producing
a product, improving a process, or providing a benefit to
DOE programs or the U.S. economy.

o    Without adequate links between work performed and milestones
achieved, DOE cannot adequately monitor milestone progress
to ensure timely completion of the CRADA. Support for
CRADAs may diminish if they are not completed in a timely
manner.

o    Without a mechanism to validate and account for partner
in-kind contributions, DOE may commit to a CRADA that has
little chance of success because it is underfunded. Also,
such a mechanism would assist in strengthening internal
controls for preventing and detecting fraud and abuse.

o    DOE facilities may manage CRADAs in a manner that is
inconsistent with following DOE policy and achieving DOE's
goals. More detailed DOE-wide management guidance would
promote consistency in management approaches and timeliness
in implementing CRADAs for achieving DOE's goals.


     In summary, we concluded that cooperative efforts, such as
those envisioned in the CRADA concept, have the potential to
greatly benefit the U.S. economy. However, based on the audit
results, we are concerned that the CRADA process could be
undermined if the Department does not implement appropriate
management techniques and performance measurement mechanisms. We
believe that this can be done without creating bureaucratic
disincentives for commercial sector interaction with the
Department's national laboratory system.

                          PART III
               MANAGEMENT AND AUDITOR COMMENTS

     The Office of Technology Partnerships concurred with
the finding and with recommendations 1.a, 1.b., and 1.e.
However, there was no concurrence with recommendations 1.c,
1.d, and 2. A summary of management's comments on the
latter recommendations and our comments follow.

Recommendation 1.c. Ensure that all CRADAs and joint work
statements clearly state the CRADA's projected potential
benefit(s) to both DOE and to the U.S. economy.

     Management Comments. The benefit to the U.S. economy
is already sufficiently addressed by the modular CRADA's
competitiveness work sheet. This work sheet requires that
the CRADA partner manufacture substantially in the U.S. or
demonstrate alternative benefits to the U.S. economy.
Management also stated that the DOE field organization which
approves CRADAs should ensure that this policy guidance is
implemented.

     Auditor Comments. The modular CRADA's competitiveness
work sheet contains valid information which pertains to
manufacturing in the United States. The issue of benefit,
however, can go well beyond the determination of where a
product will be manufactured. Most CRADAs reviewed during
the audit did not contain clear and specific statements as
to what benefits were expected, either to DOE or the U.S.
economy. Negotiators are required to ensure that the
taxpayers will receive some return on their investment;
therefore, descriptions of such benefits should appear in
joint work statements prior to CRADA approval.

Recommendation 1.d. Implement a formal tracking system that
adequately documents and links milestone progress directly
back to the tasks contained in the statements of work.

     Management Comments. The Department has already
successfully piloted and will soon implement its Integrated
Technology Transfer System. This system will provide data
for performance measurements of the Department's technology
programs, including CRADAs. This data will be input by the
laboratories and reviewed by DOE operations offices.

     The institution of a formal tracking system for
documentation of progress toward milestones in statements of
work is not an effective research or project management
tool. Regular project reviews and informal, outcome-
oriented communication among managers and principal
investigators are much better and more cost-effective tools
for management of research projects than the building of
files of formal reports. The latter measure would divert
the attention of principal investigators from technical work
and constitute a burden on available time of laboratory
scientists and engineers. It might also be viewed as
intrusive by CRADA partners.
     Auditor Comments. Implementing the Technology Transfer
System to measure performance is a positive step. However,
because the pilot system was not in place at the time of our
audit, we could not determine whether the system could
measure milestone progress.

     As to the issue of additional burden, many principal
investigators were already preparing some type of informal
report to show milestone progress. These reports, in fact,
were helpful during the audit in determining that milestones
did not always link back to tasks in the statements of work.
Formalizing this milestone reporting process should clarify
and standardize the reports and should not create an
additional administrative burden for researchers.

Recommendation 2. Establish a mechanism to ensure proper
valuation of partner contributions to a CRADA.

     Management Comments. The Department has a written
policy that it does not audit partner in-kind contributions
and the funds from other Federal programs may be applied to
CRADAs (subject to the procedures of the process that
granted those funds). Further, it is up to the
laboratories, by exercising good business judgment, to
ensure that partner in-kind CRADA contributions are
reasonable. It is the role of the DOE operations offices to
ensure that good judgment is being exercised.

     Auditor Comments. The inclusion of audit clauses in
CRADAs is but one suggestion to achieving the goal of
ensuring that partners in-kind contributions are validated.
To encourage fair cost-sharing arrangements, DOE should
devise some mechanism, audit clause or otherwise, to
independently validate the partners in-kind contributions.
The principal investigator's access to the partner's in-kind
contributions is a positive step, but does not sufficiently
protect DOE's and the taxpayers' interests.
Additionally, advisory management comments from the Director
of Defense Program's Office of Economic Competitiveness and
the Director of the Office of Energy Research's Laboratory
Management Division follow.

     Defense Programs (DP) Advisory Comments

     The Director, Office of Economic Competitiveness
(DP-14) provided advisory comments stating that the report
identified some legitimate concerns for DOE as a whole.
Further, the Director stated that he agreed with the
comments provided by the Office of Technology Partnerships.

     Energy Research (ER) Advisory Comments

     The Director, Laboratory Management Division (ER-80)
stated that he wanted to reinforce the comment from the
Office of Technology Partnerships that audits are not
appropriate for assessing partners' in-kind contributions.
Summary

     Management Comments. The Galvin Commission report
identified excessive audits and inspections as one of the
problems in the DOE laboratory system. The Office of
Technology Partnerships does not wish to be part of or add
to that problem by requiring audits of CRADA partners.

     Auditor Comments. The Galvin Commission report also
emphasized that industrial competitiveness activities at the
national laboratories are unfocused, need to be more clearly
related to DOE's mission, and need better measures of
performance. Management's position does not recognize the
need for tools for assessing program goals or needed
improvements. Audits may not be the sole alternative, but
the Office of Technology Partnerships needs to develop and
use alternative avenues for assuring that DOE, on behalf of
the taxpayers, is investing wisely in each new CRADA.


                 EXAMPLE OF CUSTOMER RESPONSE FORM

                                                 IG Report No. DOE/IG-03 73

                      CUSTOMER RESPONSE FORM

     The Office of Inspector General has a continuing interest in
improving the usefulness of its products. We wish to make our reports
as responsive as possible to our customers' requirements, and therefore
ask that you consider sharing your thoughts with us. On the back of
this form, you may suggest improvements to enhance the effectiveness of
future reports. Please include answers to the following questions if
they are applicable to you:

     1.   What additional background information about the selection,
scheduling, scope, or procedures of the audit or inspection would
have been helpful to the reader in understanding this report?

     2.   What additional information related to findings and recommenda-
tions could have been included in this report to assist management
in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made
this report's overall message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have
taken on the issues discussed in this report which would have been
helpful?

     Please include your name and telephone number so that we may contact you
should we have any questions about your comments.

     Name                                      Date

     Telephone                                 Organization
     When you have completed this form, you may telefax it to the Office of
Inspector General at (202) 586D0948, or you may mail it to:

          Office of Inspector General (IG-1)
          Department of Energy
          Washington, D.C. 20585
          ATTN: Customer Relations

     If you wish to discuss this report or your comments with a staff member
of the Office of Inspector General, please contact Rob Jacques at (202)
586D3223.
